IN RE THE SUPREME COURT OF THE UNITED STATES
CERTIFICATE OF SERVICE Rule 29.5c
:Miss Olivia Douce as beneficiary,, as Trust etc., PERELENA
DOUCE decease. Appellant,
Petitioner(s)
v.

BREVARD COUNTY TAX COLLECTORS OCEANTAX DEED
INVESTMENT LLC.ANO MURRAY ANDRIAN ANDREA.
Repondent(s)
Rob.bin Foster I firm under penalty that i am over of the age
of 18 not a parly to this action, I did served

6y VIA U.S by certified, and regular mail & Email

I HEREBY CERTIFY that a true and correct copies of the foregoing according to rules, has been
to as
furnished via US MaiUpostage prepaid, first class
/ . copies ^qo^T'Brevard
Connly

Melbourne-FL 32940 . OCEAN CIRCUIT BREVARD COUNTY FL. ADMINISTRATION P.0
GORDEN FL 34787. Clerk of the
BOX 999 TITUSVILLE FL 32781-0999
■>.

Dated: 202f/
under penalty or perjury 28'USC. 1746.
Auth Rep By:
Robin Fosier Sm Juris 3-402b 1-308

